February 19, 2020
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543-001
RE:

Chike Uzuegbunam, et al. v. Stanley C. Preczewski, et al.
Case No. 19-968

Dear Mr. Harris:
Respondents Stanley C. Preczewski, et al., respectfully request an extension
of time to respond to the petition for a writ of certiorari filed on January 31, 2020.
The response to the petition for a writ of certiorari is currently due on March 4,
2020. Respondents request a 35-day extension to and including April 8, 2020. The
extension is requested due to the press of other matters, including pre-existing
personal and professional commitments.
Sincerely,
/s/Andrew A. Pinson
Andrew A. Pinson
Solicitor General, State of Georgia
cc:

John J. Bursch
Counsel for Petitioners

